                                      UNITED STATES DEPARTMENT OF EDUCATION
                                             OFFICE OF INSPECTOR GENERAL

                                                                                                            Audit Services
                                                                                          Chicago/Kansas City Audit Region


                                                             June 7, 2007
                                                                                                 Control Number
                                                                                                 ED-OIG/A05G0033

Christopher A. Koch, Ed.D.
State Superintendent of Education
Illinois State Board of Education
100 N. 1st Street
Springfield, Illinois 62777

Dear Dr. Koch:

This Final Audit Report presents the results of our audit entitled Illinois State Board of
Education’s Compliance with the Title I, Part A, Comparability of Services Requirement. Our
audit objectives were to determine whether the Illinois State Board of Education (ISBE)
(1) monitored local educational agencies’ (LEA) compliance with the Title I, Part A,
Comparability of Services requirement and (2) ensured that the LEAs were reporting complete
and accurate comparability information to ISBE for the period July 1, 2005, through June 30,
2006 (2005-2006 program year). We also obtained information covering the period July 1, 2004,
through June 30, 2005 (2004-2005 program year) to ensure annual compliance with
comparability requirements.




                                                      BACKGROUND



The Title I, Part A, program of the Elementary and Secondary Education Act of 1965 (ESEA), as
amended by the No Child Left Behind Act of 2001 (P.L. 107-110), provides financial assistance
through state educational agencies (SEA) to LEAs and those elementary and secondary schools
with the highest concentrations of children from low-income families. To be eligible to receive
Title I funds, an LEA must use state and local funds to provide services in Title I schools that,
taken as a whole, are at least comparable to services provided in non-Title I schools. ISBE
allocated ESEA, Title I grants totaling $493,773,160 to 805 of 881 LEAs and $508,561,936 to
798 of 874 LEAs in the 2004-2005 and 2005-2006 program years, respectively. The 2004-2005
program year was a non-reporting year; however, all LEAs are still required to maintain
supporting documentation, in non-reporting years, to demonstrate that comparability was
achieved and take appropriate corrective actions if comparability was not achieved.

 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
Final Report
ED-OIG/A05G0033                                                                                       Page 2 of 20


ISBE’s External Assurance Department is responsible for monitoring LEAs’ compliance with
Title I, as well as other federal programs. ISBE uses a risk and cyclical based approach for its
monitoring process. Risk assessments for LEAs are based on the amount of funding received,
past audit findings, adequate yearly progress status, and referrals. LEAs not identified as high
risk receive on-site visits every three to five years, while LEAs identified as high risk are visited
more frequently. Every year, all LEAs are required to complete and submit a self-monitoring
checklist. According to an ISBE official, on-site visit procedures require the monitor to verify
that the LEA is complying with comparability of services by tracing data reported on the
comparability report to source documents.

To verify whether ISBE was monitoring LEAs’ compliance with the Title I, Part A,
Comparability of Services requirement, we visited and conducted tests on three LEAs within the
State of Illinois: Chicago Public Schools (CPS), Rockford Public Schools (RPS), and Troy
Community Consolidated School District (Troy).1 The Title I allocations for the LEAs’ 2004-
2005 and 2005-2006 program years are presented in the table below.

        LEA Name                  2004-2005 Title I Allocation 2005-2006 Title I Allocation
        CPS                                     $263,947,034                 $282,376,376
        RPS                                         $9,472,991                 $10,564,857
        Troy                                         $100,840                     $104,808

For the 2004-2005 and 2005-2006 program years, ISBE allowed LEAs to select from two
comparison methods to demonstrate comparability: Pupil/Staff Ratio and Salary/Pupil Ratio.
According to ISBE’s written instructions, the LEA may choose only one comparison method,
but, if after completing that method the LEA finds schools that are not comparable, it may
change its method and enter the appropriate data.




                                            AUDIT RESULTS



ISBE did not adequately monitor LEAs’ compliance with the Title I, Part A, Comparability of
Services requirement in the 2004-2005 and 2005-2006 program years. ISBE did not ensure
(1) LEAs were reporting complete and accurate comparability information or (2) that all LEAs
developed sufficient procedures for complying with the comparability of services requirement.
Two of the three LEAs we visited, CPS and Troy, reported inaccurate or unsupported
comparability information to ISBE. In addition, ISBE did not follow-up with CPS to ensure it
made adjustments to its comparability information. ISBE’s failure to adequately monitor CPS
and Troy permitted both districts to report inaccurate comparability data and allowed non-
comparable schools within CPS to remain non-compliant. Although CPS had non-comparable
schools in the 2004-2005 and 2005-2006 program years, ISBE did not cite CPS for not

1
  By selecting 3 of 798 LEAs, we tested approximately 58 percent of the total Title I funding that ISBE distributed
to the LEAs in the 2005-2006 program year.
Final Report
ED-OIG/A05G0033                                                                                   Page 3 of 20
complying with the comparability requirements and did not determine the amount of Title I
funding that should have been withheld or needed to be repaid as a result of not meeting
comparability. Therefore, ISBE was not able to demonstrate that CPS used state and local funds
to provide services in Title I schools that were at least comparable to services provided in non-
Title I schools. We recommend that the Assistant Secretary for Elementary and Secondary
Education require ISBE to return to the United States Department of Education (Department)
$16,809,020 in Title I funds that CPS allocated to non-comparable schools in the 2004-2005 and
2005-2006 program years and that portion of $529,514,390 in Title I funds received by any
additional schools that ISBE determines to be non-comparable based on CPS’ recalculation of its
2004-2005 and 2005-2006 program years’ comparability determination.

In response to our draft report, ISBE concurred with our finding and concurred with all of our
recommendations except for the financial restitutions. ISBE’s comments are summarized after
the recommendations, and the full text of the comments are included as an Attachment to this
report.

FINDING – ISBE Did Not Adequately Monitor LEAs’ Compliance with the Title I,
           Part A, Comparability of Services Requirement

ISBE did not adequately monitor LEAs’ compliance with the Title I, Part A, Comparability of
Services requirement in the 2004-2005 and 2005-2006 program years. ISBE did not ensure
(1) LEAs were reporting complete and accurate comparability information or (2) that all LEAs
developed sufficient procedures for complying with the comparability of services requirement.
In addition, ISBE did not follow-up with CPS to ensure it made adjustments to its comparability
information. ISBE’s failure to adequately monitor CPS and Troy permitted both districts to
report inaccurate comparability data and allowed non-comparable schools within CPS to remain
non-compliant.

Inadequate Monitoring of CPS

ISBE’s monitoring of CPS was inadequate. ISBE did not ensure that CPS (1) reported accurate
data, which resulted in some regular and charter schools incorrectly being reported as either
comparable or non-comparable; (2) made needed staff adjustments; (3) submitted revised
comparability determinations when needed; or (4) developed adequate procedures for complying
with comparability of services requirements.

CPS reported inaccurate data on its 2005-2006 comparability reports for 5 of 20 schools we
tested.2 The inaccuracies resulted in one of the five schools, Farragut Career Academy, being
reported as comparable when it was not. In addition, CPS reported charter schools on a separate
comparability report, but also included some of the same charter schools on the comparability

2
 CPS reported inaccurate expenditure and enrollment data on its 2005-2006 program year’s comparability report for
Chicago International-Prairie and Chicago International Charter School - Basil Campus, which are both charter
schools. CPS reported inaccurate FTE and enrollment data for Volta, which is a regular school, on its 2005-2006
program year’s comparability report. CPS reported inaccurate enrollment data for Reinberg and Farragut, which are
both regular schools, on its 2005-2006 program year’s comparability report. Farragut Career Academy received
$937,440 in 2005-2006 Title I allocations.
Final Report
ED-OIG/A05G0033                                                                                      Page 4 of 20
report for its regular, non-charter, schools.3 Therefore, some schools’ data was used more than
once in separate comparability determinations, which resulted in 14 schools erroneously being
reported as non-comparable and 1 school erroneously being reported as comparable on the
regular school comparability report.

ISBE did not follow-up with CPS to verify CPS made necessary staff adjustments to non-
comparable schools. CPS reported 39 of 538 and 49 of 6204 schools, between its regular and
charter school comparability reports, that were not comparable in the 2004-2005 and 2005-2006
program years, respectively.5 In an attempt to meet comparability, CPS opened 86 and 106.5
staff positions in its non-comparable schools in the 2004-2005 and 2005-2006 program years,
respectively. Although CPS opened the staff positions, it did not ensure all the positions were
filled. In the 2005-2006 program year, CPS filled only 19 of the positions that it opened in order
to meet comparability requirements. By adding 19 positions CPS was able to make four non-
comparable schools comparable. We did not determine how many positions from the 2004-2005
program year were filled.

The table below summarizes CPS’ non-comparable regular and charter school information for
the 2004-2005 and 2005-2006 program years.

         Chicago Public Schools Non-Comparable School Information Program Years 05 and 06
                                                                     2004-2005       2005-2006
                                                                   Program Year Program Year
Number of Schools CPS Reported as Non-comparable                               39               49
Number of Additional Non-comparable Schools Based on OIG Data
                                                                             N/A                  2
Analysis
Number of Schools Erroneously Reported as Non-comparable on
                                                                             N/A              (14)
Regular Report Due to Using Charter School Data Twice
Number of Schools Erroneously Reported as Non-comparable Twice               N/A                (1)
Number Schools Made Comparable Due to Filled Positions                       N/A                (4)
Total Number of Non-Comparable Schools                                         39               32
Funding Allocated to Non-Comparable Schools                           $10,050,340       $6,758,680

ISBE did not require CPS to submit required comparability report revisions. CPS did not include
charter schools on its comparability report in the 2004-2005 program year. Although ISBE
requested that CPS recalculate 2004-2005 comparability with the charter schools included in the
determination, it did not ensure that CPS submitted a revised comparability determination.6 In
the 2005-2006 program year, CPS reported charter schools on a separate comparability report.

3
  According to the Department’s Fiscal Guidance, an LEA may use a different method for determining
comparability to account for differences between its charter schools and “regular” schools. So CPS is allowed to
report charter schools on a separate comparability report.
4
  CPS reported 620 total schools on its 2005-2006 regular and charter school comparability reports. Our analysis of
the reports revealed that some schools were reported more than once. The correct number of schools, excluding
repeats, is 586.
5
  CPS overstated the amount of non-comparable schools it had in the 2005-2006 program year due to using charter
school data twice. Based on our analysis of the data, we found that CPS had only 32 schools that were non-
comparable in the 2005-2006 program year. See table on page 4 for further explanation.
6
  Although CPS was not required to submit a comparability report to ISBE in the 2004-2005 program year, a non-
reporting year, it did so anyway, but neglected to include charter schools in the determination.
Final Report
ED-OIG/A05G0033                                                                        Page 5 of 20
However, the regular school comparability report included charter school data more than once.
ISBE did not require CPS to resubmit its regular school 2005-2006 comparability determination,
as ISBE did not appear it was aware of the repeated school information until we brought it to
ISBE’s attention during our site visit. A CPS official said that CPS did not resubmit its regular
school 2005-2006 program year comparability report, because ISBE did not direct CPS to
resubmit it.

ISBE was not able to provide an explanation for why it failed to obtain revised and corrected
comparability reports from CPS for the 2004-2005 and 2005-2006 program years. It is ISBE’s
policy to contact an LEA when it notes errors on the LEA’s comparability report and request that
the errors be corrected and the report resubmitted. If the LEA does not correct the errors and
resubmit the comparability form, its funds are frozen until the issue is resolved. In this instance,
ISBE did not follow its own policy, because it did not review CPS’ 2005-2006 program year
comparability reports to the extent necessary to detect CPS’ reporting errors. ISBE requested
that CPS submit a revised comparability report for the 2004-2005 program year, but failed to
ensure that CPS completed and submitted the revised report.

ISBE did not ensure that CPS developed adequate procedures for complying with the
comparability of services requirement. CPS’ local procedures for compliance with the Title I,
Part A, Comparability of Services requirement are inadequate. The procedures do not specify
that only full-time equivalencies (FTE) from filled and not vacant positions be included in the
comparability determination. CPS’ local procedures state that if schools fail to demonstrate
comparability, CPS is to inform the schools that they should hire a certain number of positions to
meet comparability. According to a CPS official, hiring is left to the discretion of the school
principals and CPS does not impose a penalty, such as withholding or freezing funds, for schools
that fail to hire the required number of positions to achieve comparability. An official with the
Department’s Student Achievement and School Accountability (SASA) office informed ISBE in
April of 2004, that merely opening positions in CPS’ non-comparable schools would not be
sufficient to ensure the schools were comparable. SASA reiterated that position when it
identified this as a finding in a monitoring report dated June 2005. ISBE stated that it had
informed CPS that merely opening positions in non-comparable schools was not sufficient to
make the schools comparable. A CPS official told us that CPS includes open or vacant positions
as instructional staff FTE on the comparability report.

Inadequate Monitoring of Troy

ISBE’s monitoring of Troy was inadequate. During the 2005-2006 program year, Troy used the
prior year’s (2004-2005 program year) Individuals with Disabilities Education Act (IDEA)
budgeted expenditures to calculate the portion of FTE paid with federal funds, which is
subtracted from the total FTE amount reported for comparability. Troy received more IDEA
funds in the 2005-2006 program year than in the 2004-2005 program year; therefore, a larger
portion of FTE should have been subtracted from the FTE reported for comparability. As a
result, Troy overstated its state and local FTE amount on its 2005-2006 comparability report by
approximately 3.4 FTEs. However, we determined that comparability for the 2005-2006
program year was not impacted.
Final Report
ED-OIG/A05G0033                                                                       Page 6 of 20
In the 2004-2005 and 2005-2006 program years, Troy used ISBE’s Title I Instructions to
complete the comparability report, because Troy did not have sufficient written instructions of its
own for completing the comparability report. ISBE’s Title I Instructions state that if an LEA has
comparisons to make, federal funds are to be excluded in making calculations. ISBE’s
instructions provide an overall guideline that LEAs must follow in order to complete and submit
the comparability report; however, the instructions do not reference specific situations that the
individual LEA might encounter, such as the management of IDEA funds. An LEA’s local
procedures should address the circumstances specific to the LEA. Troy reported inaccurate data
to ISBE because ISBE did not ensure that Troy had sufficient written procedures in place for
completing the comparability report.

ISBE is Responsible for Monitoring the LEAs’ Compliance with the Comparability of Services
Requirement

The law and regulations require ISBE to monitor LEAs’ compliance with the Title I, Part A,
Comparability of Services requirement and ensure LEAs report complete and accurate
comparability information. Title I, Part A, Section 1120A(c)(1)(A), of the ESEA states that an
LEA may receive funds under this part only if state and local funds will be used in schools
served under this part to provide services that, taken as a whole, are at least comparable to
services in schools that are not receiving funds under this part. Under the Uniform
Administrative Requirements for Grants and Cooperative Agreements to State and Local
Governments, 34 C.F.R. §80.40(a), grantees are responsible for managing the day-to-day
operations of grant and subgrant supported activities. Grantees must monitor grant and subgrant
supported activities to assure compliance with applicable federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function,
or activity.7

According to ISBE's 2005-2006 Title I Comparability Instructions, if any schools within an LEA
are not comparable, the LEA must first develop and submit to ISBE an explanation of how it will
achieve comparability. After appropriate steps are taken, the LEA must then submit its revised
calculations to ISBE. However, if schools within the LEA are still not comparable, ISBE will
cite the LEA and a determination will be made concerning the amount of the LEA's Title I funds
that are to be withheld or repaid. In addition, ISBE’s instructions also state that the LEA must
develop written procedures to ensure that comparable services are provided and demonstrate that
the procedures, if implemented, do in fact achieve comparability. If schools within the LEA are
not comparable, the district must use its written procedures to correct the imbalance, and must
submit documentation to this effect.

CPS’ local procedures state that all data, documents, and policies supporting the assurance and
verifying compliance with the comparability requirement must be on file at the local Title I
office. According to the local procedures, if such information does not demonstrate to state or
federal auditors that comparability of services provided with state and local funds exists between
Title I and non-Title I schools, the following actions may result: (1) Suspend immediately the
Title I program at schools in non-compliance until such absence of comparability has been
corrected, (2) Withhold payments of Title I funds based on the amount or percentage by which
7
    All regulatory citations are as of July 1, 2004.
Final Report
ED-OIG/A05G0033 	                                                                                  Page 7 of 20
the school district is out of compliance, and/or (3) Have an LEA repay Title I funds for that
project year through the date of suspension equal to the amount or percentage by which the
school district has failed to meet the comparability requirement.

ISBE Not Able to Demonstrate Whether CPS Provided Comparable Services

By not adequately monitoring LEA compliance with the Title I, Part A, Comparability of
Services requirement, ISBE was not able to demonstrate whether CPS used state and local funds
to provide services in Title I schools that were at least comparable to services provided in non-
Title I schools in the 2004-2005 and 2005-2006 program years. In addition, ISBE’s inadequate
monitoring allowed CPS to report incomplete and inaccurate comparability data. CPS received
$282.3 million in Title I allocations (55.5 percent of the total allocations received by all LEAs) in
the 2005-2006 program year. In both program years, CPS reported non-comparable schools and
opened FTE positions in order to make the schools appear comparable. However, ISBE did not
ensure that the positions opened to achieve comparability were filled. We noted comparability
data reporting errors in 25 percent of the 2005-2006 program year data tested, which resulted in
identifying an additional non-comparable school.8 Therefore, errors might be present in the
2004-2005 comparability data CPS reported as well as the remaining untested 2005-2006 data.
Although Troy was able to demonstrate that the errors made in reporting instructional staff FTE
data did not impact comparability in the 2005-2006 program year, insufficient written procedures
could lead to more reporting errors that may impact comparability in the future.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education require
ISBE to—

1.1	    Return $16,809,020 in Title I, Part A, funds that CPS allocated to non-comparable
        schools in the 2004-2005 and 2005-2006 program years.9

1.2	    Return that portion of $529,514,390 in Title I funds received by additional schools that
        ISBE determines to be non-comparable, based on CPS’ promised recalculation of its
        2004-2005 and 2005-2006 program years’ comparability determinations.10

1.3	    Ensure that LEAs develop sufficient written procedures for compliance with the
        comparability of services requirement, which state clearly that only filled, not vacant,
        positions be included as part of instructional staff FTE count for purposes of
        comparability and address specific penalties for schools that fail to demonstrate
        comparability.


8
  CPS erroneously reported data from its supporting documentation on the 2005-2006 comparability reports for 5 of
20 schools we tested. See footnote 2 for additional information.
9
  See table on page 4 for further explanation.
10
   ISBE allocated to CPS $263,947,034 in Title I funds in the 2004-2005 program year and $282,376,376 in the
2005-2006 program year (a total allocation of $546,323,410 for both program years). We are already
recommending that CPS return $16,809,020 in Title I funds allocated to non-comparable schools for the two
program years. Therefore, the balance of funds in question is $529,514,390.
Final Report
ED-OIG/A05G0033 	                                                                     Page 8 of 20
1.4	    Ensure that LEAs required to submit revised comparability reports due to reporting errors
        do so in a timely manner, and ensure LEAs implement corrective actions.

1.5	    For all future calculations, cite LEAs that do not comply with the comparability
        requirements and determine the amount of Title I funding to be withheld or repaid as a
        result of the LEAs’ noncompliance.

1.6 	   Include detailed information in ISBE’s Title I Instructions regarding the reporting of
        charter schools’ comparability data and ensure that LEAs with charter schools have a
        clear understanding of the instructions.

1.7 	   Review CPS’ 2006-2007 program year comparability determinations to ensure that
        complete and accurate comparability information was reported, school data was not
        included more than once, any positions opened to achieve comparability were filled, and
        only filled, not vacant, positions were included in instructional staff FTE count on the
        comparability reports.

1.8 	   Return that portion of Title I funds CPS allocated to schools that ISBE determines to be
        non-comparable for the 2006-2007 program year, based on its examination of CPS’
        2006-2007 program year comparability determinations.

ISBE Comments
ISBE concurred with our finding, partially concurred with Recommendations 1.1 and 1.2, and
concurred with Recommendations 1.3 through 1.8. Instead of returning the $16,809,020 of Title
I, Part A, funds that were allocated to non-comparable schools in the 2004-2005 and 2005-2006
program years that was addressed in Recommendation 1.1, ISBE stated that it would follow
CPS’ written procedures when non-comparable schools are identified. CPS’ written procedures
provide an option for the LEA to repay Title I funds for that project year equal to the amount or
percentage by which the school district has failed to meet the comparability requirement. As a
result, ISBE stated that it would request CPS to return Title I, Part A, funds in the amount of
$1,649,301 based on ISBE’s calculation of the amount by which CPS’ schools were out of
compliance. However, instead of returning $1,649,301, ISBE requested that CPS be allowed to
convert these funds to support the instructional program.

Instead of returning that portion of $529,514,390 in Title I, Part A, funds received by additional
schools that ISBE determines to be non-comparable that was addressed in Recommendation 1.2,
ISBE stated it would calculate the amount of funds to be returned based on its methodology of
determining the necessary amount of state or local funds needed to achieve comparability by
each school. However, instead of returning these funds, ISBE requested that CPS be allowed to
convert these funds to support the instructional program. ISBE indicated that it would complete
additional fieldwork required to determine if any additional schools were not comparable in the
2004-2005 and 2005-2006 program years by June 30, 2007.

OIG Response
Title I, Part A, Section 1120A(c)(1)(A), of the ESEA states that an LEA may receive funds under
this part only if state and local funds will be used in schools served under this part to provide
Final Report
ED-OIG/A05G0033                                                                          Page 9 of 20
services that, taken as a whole, are at least comparable to services in schools that are not
receiving funds under this part. While the ESEA indicates that an LEA should not receive Title I
funds if its schools are not comparable, we recommended the return of funds that went to CPS
schools that were not comparable and not CPS’ entire allocation. According to the Department’s
Non-Regulatory Guidance, Title I Fiscal Issues, meeting the comparability requirement is the
prerequisite to receiving any Title I, Part A funds and, therefore, the CPS schools identified as
non-comparable were not entitled to receive any Title I, Part A funds. CPS’ local procedures and
ISBE’s comments to the draft report stating that CPS will only repay the percentage by which
school districts failed to meet the comparability requirement does not comply with federal
requirements. In addition, some of the funds that ISBE requested CPS be allowed to convert to
support the instructional program may be past the period of availability. Therefore, we did not
revise the finding or change the recommendations.

We reviewed ISBE’s recalculations and the supporting documentation that we received as part of
the response to the draft report and concluded that the 2004-2005 and 2005-2006 charter school
recalculations and the supporting documentation were inaccurate and incomplete and could not
be accepted. ISBE did not recalculate CPS’ charter school calculations using the same data CPS
originally reported to ISBE. ISBE’s comparability recalculations of CPS’ charter schools for the
2004-2005 and 2005-2006 program years were completed using year-end enrollment and actual
expenditure data from June 30, 2005, and June 30, 2006, respectively. However, comparability
must be tested in the beginning of each school year to ensure that financial assistance is allotted
to those elementary and secondary schools with the highest concentrations of children from low-
income families. The comparability process must enable an LEA to identify, and correct during
the current school year, instances in which it has non-comparable schools. In addition, it appears
as though CPS cannot identify its charter schools’ expenditures. CPS reported three different
sets of expenditure data. CPS reported one set of expenditure data in its initial comparability
report for the 2005-2006 program year. It reported a second set of data to the OIG during our
audit, and a third set of data to ISBE during its site visit to conduct research for the recalculation.
Finally, ISBE grouped CPS’ charter schools in a different manner in its recalculation than CPS
did when it originally reported its comparability to ISBE for the 2005-2006 program year.




                  OBJECTIVES, SCOPE, AND METHODOLOGY



Our audit objectives were to determine whether ISBE (1) monitored LEAs’ compliance with the
Title I, Part A, Comparability of Services requirement and (2) ensured that the LEAs were
reporting complete and accurate comparability information to ISBE for the 2005-2006 program
year. Our audit covered the period July 1, 2005, through June 30, 2006 (2005-2006 program
year). We also obtained information covering the period July 1, 2004, through June 30, 2005
(2004-2005 program year) to ensure annual compliance with comparability requirements.
Final Report
ED-OIG/A05G0033 	                                                                                    Page 10 of 20
To achieve our objectives, we

     1.	 Obtained and reviewed audit reports and auditor documentation prepared by the Illinois
         Auditor General for ISBE and selected LEAs;11
     2.	 Visited 3 LEAs (CPS, RPS, and Troy) that we judgmentally selected by stratifying the
         798 LEAs into three categories (large, medium, and small) based on the amount of Title I
         allocations received in the 2005-2006 program year and selecting the highest funded LEA
         from each category;12
     3.	 Gained a limited understanding of ISBE’s and the selected LEAs’ internal control 

         structure, policies, procedures, and practices applicable to the Title I, Part A, 

         Comparability of Services; 

     4.	 Determined how ISBE monitored LEAs’ compliance with the comparability of services
         requirements;
     5.	 Tested ISBE’s monitoring of the selected LEAs’ (a) procedures for complying with the
         comparability of services requirements and implementing the procedures annually and (b)
         maintenance of records that are updated biennially documenting compliance with the
         comparability of services requirement; and
     6.	 Determined if the selected LEAs reported complete and accurate comparability data to
         ISBE by tracing a random sample of 20 of 581,13 5 of 43, and 4 of 4 schools’ 2005-2006
         program year’s comparability data to accounting records for CPS, RPS, and Troy,
         respectively.

We also relied, in part, on computer-processed data used on comparability reports that ISBE and
its LEAs entered in the County District School (CDS) system14 and in their own systems. We
determined whether the data were reliable by selecting and testing a judgmental sample of
comparability data for 3 of the 798 LEAs that received Title I funding in the 2005-2006 program
year. We gained a limited understanding of the related computer system controls and compared
our sample of the three LEAs' data (such as the school code, school name, and grade span) from
CDS to the corresponding data on the LEAs' No Child Left Behind Consolidated Applications.
The data generally appeared to be complete and accurate and had corroborating evidence on
which we could rely.15 We concluded that the computer-processed data we were provided was
sufficiently reliable for the purposes of our audit.

We conducted our fieldwork from September 12, 2006, through February 16, 2007, at ISBE’s
administrative offices in Springfield, Illinois; CPS’ administrative offices in Chicago, Illinois;

11
   We obtained and reviewed the State of Illinois Single Audit Report for the year ended June 30, 2004, and the State 

of Illinois Single Audit Report for the year ended June 30, 2005, prepared by KPMG; CPS' Single Audit Report for 

the year ended June 30, 2005, prepared by Deloitte & Touche; CPS’ Single Audit Report for the year ended June 30, 

2006, prepared by McGladrey & Pullen; RPS' Single Audit Reports for the years ended June 30, 2005, and June 30, 

2006, prepared by Crowe Chizek; and Troy's Single Audit Reports for the years ended June 30 2005, and June 30, 

2006, prepared by Wermer, Rogers, Doran & Ruzon. 

12
   CPS was put into its own category because it received 55.5 percent of the total allocations received by all LEAs in

program year 2005-2006. 

13
   After further analysis, we determined the universe of CPS schools to be 586. 

14
   The County District School system contains district/school demographic data. The system is used to

electronically validate the ISBE Student Information System data. 

15
   Corroborating evidence is evidence such as interviews, prior reports, and data in alternative systems. 

Final Report
ED-OIG/A05G0033                                                                      Page 11 of 20
RPS’ administrative offices in Rockford, Illinois; and Troy’s administrative offices in Plainfield,
Illinois. We discussed the results of our audit with ISBE officials on March 26, 2007. Our audit
was performed in accordance with generally accepted government auditing standards appropriate
to the scope of audit described above.




                            ADMINISTRATIVE MATTERS



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken, including the recovery of funds, will be made by
the appropriate Department of Education officials, in accordance with the General Education
Provisions Act.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                              Kerri L. Briggs
                              Acting Assistant Secretary
                              Office of Elementary and Secondary Education
                              US Department of Education
                              400 Maryland Ave., SW, Room 3W315
                              Washington, D.C. 20202

It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                             Sincerely,
                                             /s/
                                             Gary D. Whitman
                                             Acting Regional Inspector General
                                             for Audit


Attachment
Final Report
ED-OIG/A05G0033                                                               Page 12 of 20

               ATTACHMENT: ISBE Comments on the Draft Report

The following eight pages are ISBE’s comments addressing the draft report finding and
recommendations. IBSE also provided additional supporting documentation that was not
included in the Attachment but is available upon request. The final report finding was
unchanged; however, we did modify Recommendation 1.5 for additional clarity by adding “for
all future calculations.”
Final Report                                                                                                                       Attachment 

ED-OlGIA05G0033                                                                                                                   Page 13 of20 





                  Illinois State Board of Education                                                             J.... H. RulZ
                  100 North First Street· Springfield. illinois 62777-0001 	
                  WVIW.lsbe.nat                                                                                      Chairman

                  Rod Blagolevlch                                                                Chrtllopher A. Koch. Ed.D.
                  Govemor                                                                    Stale SupsrinlfHldenl of Educalfon



                                                                 May 7, 2007



         Mr. Richard J. Dowd
         Regional Inspector General for Audit
         U.S. Department of Education
         Office of the Inspector General
         Citigroup Center
         500 W. Madison Street, Suite 1440
         Chicago, IL 60661

         Control Number
         ED-OIG I A05G0033

         Dear Mr. Dowd:

         I have received the Office of Inspector General's draft Audit Report, titled Illinois State
         Board ofEducation's Title I, Part A, Comparability ofServices Requirement, dated April
         4,2007_

         Enclosed is the llIinois State Board of Education's response to the fmding and
         recommendations made by your audit team_

         If you require further infonnation on clarification, please contact Division Administrator,
         Robert Wolfe of the External Assurances Division at 217-782-7970.

                                                                  Sincerely,



                                                                  Christopher A. Koch, Ed.D. 

                                                                  State Superintendent of Education· 



         cc: 	   Jolanta Biskup, Office of Inspector General
                 Lori Eichelberg, Office of Inspector General

         Enclosure
Final Report                                                                         Attachment
ED-OIG/A05G0033                                                                     Page 14 of 20

                             Illinois State Board of Education
Response to Title I, Part A, Comparability of Services Audit
Control Number ED-OIG / A05G0033

FINDING

ISBE Did Not Adequately Monitor LEA Compliance with Title I, Part A, Comparability of
Services

ISBE Response

ISBE concurs with the audit finding as it relates to the noted deficiencies for Chicago Public
Schools’ (CPS) 2004-2005 and 2005-2006 school year comparability reports and for the lack of
monitoring to ensure that LEAs have detailed written procedures for complying with the
comparability of services requirements.

ISBE concurs with the audit finding as it relates to the noted deficiency that Troy School District
did not have written procedures in place for completing the report.

Recommendation 1.1

Return $16,809,020 in Title I, Part A, funds that CPS allocated to non-comparable schools in the
2004-2005 and 2005-2006 program years.

ISBE Response

ISBE partially concurs with the recommendation.

As stated in the audit report,

       CPS’ local procedures state that all data, documents, and policies 

       supporting the assurance and verifying compliance with the comparability 

       requirement must be on file at the local Title I office. If such information 

       does not demonstrate to state or federal auditors that comparability of 

       services provided with state and local funds exists between Title I and non-

       Title I schools, the following actions may result: (1) Suspend immediately

       the Title I program at schools in noncompliance until such absence of 

       comparability has been corrected, (2) Withhold payments of Title I funds 

       based on the amount or percentage by which the school district is out of 

       compliance, and/or (3) Have an LEA repay Title I funds for that project 

       year through the date of suspension equal to the amount or percentage by 

       which the school district has failed to meet the comparability requirement. 

Final Report                                                                         Attachment
ED-OIG/A05G0033                                                                     Page 15 of 20

The request for return of $16,809,020 of Title I, Part A, funds is the total Title I, Part A
allocations for the 39 schools for the 2004-2005 school year and 32 schools for the 2005-2006
school year that were not comparable.

Following CPS’ written procedures, ISBE will request a return of Title I, Part A funds in the
amount of $1,649,301. Additional state or local funds were allocated to those schools for the
hiring of additional positions necessary to achieve comparability. These positions were
advertised but remained unfilled, resulting in the inability to demonstrate comparability in those
schools. The $1,649,301 amount represents the additional expenditures for the positions
necessary to achieve comparability at those schools. (Exhibit I)

CPS requests that they be allowed to convert the funds provided for comparability positions that
were not filled for the schools to support the instructional program. The funds would be utilized
for professional development, instructional supplies and materials and other instructional
expenses. CPS has requested not to return the $1,649,301.

Recommendation 1.2

Return that portion of $529,514,390 in Title I funds received by additional schools that
ISBE determines to be non-comparable, based on CPS’ promised recalculation of its
2004-2005 and 2005-2006 program years’ comparability determination.

ISBE Response

ISBE partially concurs with the recommendation.

By June 30, 2007, ISBE will complete the additional fieldwork required to determine if any
additional schools are not comparable and calculate the amount of funds to be returned based on
the methodology of determining the necessary amount of state or local funds needed to achieve
comparability by each school.

CPS requests that they be allowed to convert any identified funds to be returned as a result of not
achieving comparability for the schools to support the instructional program. The funds would be
utilized for professional development, instructional supplies and materials and other instructional
expenses.

Recommendation 1.3

Ensure that LEAs develop sufficient written procedures for compliance with the comparability of
services requirement, which state clearly that only filled, not vacant, positions be included as
part of instructional staff FTE count for purposes of comparability and address specific penalties
for schools that fail to demonstrate comparability.

ISBE Response

ISBE concurs with the recommendation.
Final Report                                                                         Attachment
ED-OIG/A05G0033                                                                     Page 16 of 20


ISBE will amend its Title I Comparability Instructions for the 2007 – 2008 school year to
include the following statement:

        An LEA must develop procedures for complying with the comparability 

        requirements. Those procedures should be in writing and should, at a 

        minimum, include the LEA’s timeline for demonstrating comparability, 

        identification of the position responsible for making comparability 

        calculations, the measure and process used to determine whether schools 

        are comparable, and how and when the LEA makes adjustments in 

        schools that are not comparable. 


In addition, ISBE will add a specific monitoring question to the NCLB Monitoring Instrument
for the 2007-2008 school year that addresses the requirements for detailed written procedures.

Recommendation 1.4

Ensure that LEAs required to submit revised comparability reports, due to reporting errors, do
so in a timely manner, and ensure LEAs implement corrective actions.

ISBE Response

ISBE concurs with the recommendation.

When it is determined that a LEA is required to submit revised comparability reports, ISBE will
notify the LEA in writing of the requirement with a timeline for implementation of the corrective
actions needed and the specific evidence needed to demonstrate that the corrective action has
been implemented.

Recommendation 1.5

Cite LEAs that do not comply with the comparability requirements and determine the amount of
Title I funding to be withheld or repaid as a result of the LEAs’ noncompliance.

ISBE Response

ISBE concurs with the recommendation.

Now that ISBE has direction to request Title I, Part A funds be returned in the event that an LEA
can not achieve comparability, it will do so in a timely manner.

Recommendation 1.6

Include detailed information in ISBE’s Title I Instructions, regarding the reporting of charter
schools’ comparability data, and ensure that LEAs with charter schools have a clear
understanding of the instructions.
Final Report    	                                                                  Attachment
ED-OIG/A05G0033            	                                                      Page 17 of 20


ISBE Response

ISBE concurs with the recommendation.

ISBE will amend its Title I Comparability Instructions for the 2007-2008 School Year to include
detailed instructions to LEAs regarding their treatment of Charter Schools. Those instructions
will include statements that:

       1.	 A separate comparison for Charter Schools should be completed.
       2.	 LEAs may use a different method for determining comparability for charter schools
           than the method utilized to determine comparability for regular schools.


Recommendation 1.7

Review CPS’ 2006-2007 program year comparability determinations to ensure that complete
and accurate comparability information was reported, school data was not included more than
once, any positions opened to achieve comparability were filled, and only filled, not vacant,
positions were included in instructional staff FTE count on the comparability reports.

ISBE Response

ISBE concurs with the recommendation.

By June 30, 2007, ISBE will review CPS’ 2006-2007 school comparability determinations to
ensure that complete and accurate comparability information and that the LEA employed
corrective action for those schools that did not demonstrate compliance with the comparability
requirement.

Recommendation 1.8

Return that portion of Title I funds CPS allocated to schools that ISBE determines to be non-
comparable for the 2006-2007 program year, based on its examination of CPS’ 2006-2007
program year comparability determinations.

ISBE Response

ISBE concurs with the recommendation.

By June 30, 2007, ISBE will complete the additional fieldwork required to determine if any
additional schools are not comparable and calculate the amount of funds to be returned based on
the methodology of determining the necessary amount of state or local funds needed to achieve
comparability by each school.
Final Report                                                                        Attachment
ED-OIG/A05G0033                                                                    Page 18 of 20

CPS requests that they be allowed to convert any identified funds to be returned as a result of not
achieving comparability for the schools to support the instructional program. The funds would be
utilized for professional development, instructional supplies and materials and other instructional
expenses.
Final Report                                                                                                                       Attachment
ED-OIG/A05G0033                                                                                                                   Page 19 of 20


                                                     Illinois State Board of Education
  Control Number ED-DIG / A05GOO33
                                                                   Exhibit I
                                       Schools Reported as Non-Comparable in School Year 2004-2005
                                                           Identified                                                   Amount of State
                                                           Positions                      Positions                     or Local Funds
                                                          Needed to                      Needed to                         Needed to
                                             Title I        Achieve          Positions    Achieve                           Achieve
      Unit                Name             Allocation   Comearability         Added    Com~arability       Sala!I *     Comearability
      1200      Hancock                  $     225,000        11.0                          11.0       $      19,554   $       215,094
     2250       Beidler                  $     290,080        0.5                           0.5        $      19,554   $          9,777
     2260       Belding                  $      72,000        0.5                           0.5        $      19,554   $          9,777
     2670       Carter                   $     369,820        0.5                           0.5        $      19,554   $          9,777
     2740       Chalmers                 $     172,080        0.5                           0.5        $      19,554   $          9,777
     2900       Copernicus               $     280,460        2.0               1.0          1.0       $      19,554   $         19,554
     3010       Deneen                   $     228,520        3.0              3.0          0.0        $      19,554   $
     3660       Gregory                  $     304,140        0.5                           0.5        $      19,554   $          9,777
     3800       Harvard                  $     285,600        1.5               1.0         0.5        $      19,554   $          9,777
     3980       Lara Acad                $     203,000        1.0               1.0         0.0        $      19,554   $
     4410       Green Wend               $      94,080        3.0              3.0          0.0        $      19,554   $
     4570       Madison                  $     255,680        2.5              2.0          0.5        $      19,554   $          9,777
     4600       Northwest                $     379,680        2.0                           2.0        $      19,554   $         39,108
     4640       Faraday                  $     221,900        1.5               1.0         0.5        $      19,554   $          9,777
     4760       McKay                    $     534,600        0.5                           0.5        $     19,554    $          9,777
     5020       Murphy                   $     120,800        2.0                           2.0        $      19,554   $         39,108
     5040       Brown Acad               $     114,920        0.5                           0.5        $      19,554   $          9,777
     5420       Garvey                   $     207,760        4.0              1.0          3.0        $     19,554    $         58,662
     5580       Reavis                   $     274,040        2.5              1.0          1.5        $     19,554    $        29,331
     5600       Reinberg                 $     200,600        0.5                           0.5        $     19,554    $          9,777
     5610       Revere                   $     215,040        3.5              3.0          0.5        $     19,554    $          9,777
     5750       Bontemps                 $     319,680        4.0              3.0          1.0        $     19,554    $         19,554
     5830       Sexton                   $     412,460        5.5              3.0          2.5        $     19,554    $        48,885
     5890       Sherman                  $     302,400        2.0              1.0          1.0        $     19,554    $         19,554
     6240       Twain                    $     101,040        1.0                           1.0        $     19,554    $         19,554
     6320       Walsh                    $     188,720        1.5              1.0          0.5        $     19,554    $          9,777
     6390       Wentworth                $     329,940        1.5              1.0          0.5        $     19,554    $          9,777
     6420       Whistler                 $     216,920        4.0              4.0          0.0        $     19,554    $
     6500       Yale                     $     213,120        2.5              1.0          1.5        $     19,554    $        29,331
     6520       Young                    $     583,800        1.0              1.0          0.0        $     19,554    $
     6550       Bond                     $     316,800        3.0              1.0          2.0        $     19,554    $        39,108
     6810       Price                   $      151,320        1.0                           1.0        $     19,554    $         19,554
     6860       Dulles                  $      412,800        1.0                           1.0        $     19,554    $        19,554
     6880       Banneker                $      337,680        5.5              4.0          1.5        $     19,554    $        29,331
     6900       Ashe                    $      182,620        2.0              1.0          1.0        $     19,554    $        19,554
     6950       Mollison                $      187,440        0.5                           0.5        $     19,554    $          9,777
     7260       Westcott                $      252,280        1.0              1.0          0.0        $     19,554    $
     7820       Woodson                 $      263,520        2.0              2.0          0.0        $     19,554    $
     8050       De Priest               $      228,000        5.5              4.0          1.5        $     19,554    $        29,331
  Total State and Local Funds Needed to Achieve Comparability for 2004-2005 School Year                                $      840,822


  * CPS First   Year Teacher Assistant salary for the 2004-2005 School Year




                                                                  Page 1 of 2
Final Report                                                                                                                    Attachment
ED-OIG/A05G0033                                                                                                                Page 20 of 20



                                                  Illinois State Board of Education
 Control Number ED-OIG I A05GOO33
                                                            Exhibit I
                              Regular Schools Reported as Non-Comparable in School Year 2005-2006
                                                        Identified                                            Amount of State
                                                         Positions                 Positions                   or Local Funds
                                                        Needed to                 Needed to                       Needed to
                                            Title I      Achieve      Positions    Achieve                         Achieve
    Unit                 Name             AUocation Comparability      Added    Comparability     Salary *     Comparability
    1300     Farragut Career Acad        $ 937,440          3.0                       3.0      $     20,335   $         61,005
    2260     Belding                     $    99,170        1.5                       1.5      $     20,335   $         30,503
    2280     Bennett                     $ 181,260          5.0         4.0           1.0      $     20,335   $         20,335
    2510     Castellanos                 $ 268,800          5.0         5.0           0.0      $     20,335   $
    2800     Cleveland                   $ 192,660         3.0                       3.0       $    20,335    $         61,005
    2870     Jordan School               $ 204,600          1.5                       1.5      $    20,335    $         30,503
    3130     Earle                       $ 209,950         0.5          0.5          0.0       $    20,335    $
    3330     Fernwood                    $ 172,920         2.0          1.0           1.0      $    20,335    $         20,335
    3350     Field                       $ 219,240          1.5                       1.5      $    20,335    $         30,503
    3660     Gregory                     $ 192,150         0.5                       0.5       $    20,335    $         10,168
    4030     Holmes                      $ 285,600         2.0          2.0          0.0       $    20,335    $
    4100     Cullen                      $ 151,280         0.5          0.5          0.0       $    20,335    $
    4230     Jungman                     $ 140,910         0.5                       0.5       $    20,335    $         10,168
    4280     Key                         $ 190,080         3.0          2.0           1.0      $    20,335    $         20,335
    4550     Lawrence                    $ 243,100         0.5          0.5          0.0       $    20,335    $
    5290     Park Manor                  $ 161,280          1.0                       1.0      $    20,335    $         20,335
    5380     Washington H                $ 263,040         0.5          0.5          0.0       $    20,335    $
    5440     Pirie                       $ 165,490         1.5                       1.5       $    20,335    $        30,503
    5550     Ravenswood                  $ 163,200         3.0                       3.0       $    20,335    $        61,005
    5660     Ruggles                     $ 162,840         1.0                       1.0       $    20,335    $        20,335
    6360     Washington G                $ 182,560         0.5                       0.5       $    20,335    $         10,168
    6370     Waters                      $ 136,300         0.5                       0.5       $    20,335    $         10,168
    6760     Dvorak Acad                 $ 241,560         1.5                       1.5       $    20,335    $        30,503
    6970     Tanner                      $ 204,600         2.5          2.0          0.5       $    20,335    $         10,168
    7010     Powell                      $ 169,470         3.0                       3.0       $    20,335    $        61,005
    7250     Hinton                      $ 245,760         2.5          1.0          1.5       $    20,335    $        30,503
    7260     Westcott                    $ 216,480         1.5          1.5          0.0       $    20,335    $
    7300     AAST- Orr Hs                $ 137,640         2.0                       2.0       $    20,335    $        40,670
    7490     Evergreen Acad              $ 145,000         2.0          2.0          0.0       $    20,335    $
    7830     Claremont Academy           $ 239,200         3.0          3.0          0.0       $    20,335    $
                               Sub-Total                                                                      $       620,218

 '" CPS First Year Teacher Assistant salary for the 2004-2005 School Year

                Charter Schools Determined to be Non-Comparable in School Year 2005-2006 After ISBE Fieldwork

                                                                                                Amount of     Amount of State
                                                                                                  State or    or Local Funds
                                                                                               Local Funds       Needed to
                                            Title I  Charter School                              per Pupil        Achieve
   Unit                Name               Allocation  Enrollment                                Needed to      Comparabilitr
   2600     University of Chicago        $    93,500     193.0                                 $     431.78   $        83,334
   3500     Aspira Charter School        $    84,930     525.0                                 $      87.21   $        45,785
   2490     Y ng Women Lead Charter      $    70,560     331.0                                 $     178.68   $        59,143
                               Sub-Total                                                                      $      188,262

            State or Local Funds Needed to Achieve Comparability for 2005-2006                                $      808,479
            State or Local Funds Needed to Achieve Comparability for 2004-2005 (pg 1 of 2)                    $      840,822
            Total                                           Page 2 of 2                                       $    1,649,301
